<html>
<title> - OVERSIGHT HEARING TO REVIEW THE PERMITTING OF ENERGY PROJECTS</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]


 
    OVERSIGHT HEARING TO REVIEW THE PERMITTING OF ENERGY 
            PROJECTS WEDNESDAY, MAY 25, 2005

    U.S. Senate, Committee on Environment and Public Works, 
Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Dirksen Senate Building, Hon. James Inhofe [chairman of 
the committee] presiding.
    Present: Senators Inhofe, Warner, Chafee, Isakson, Vitter, 
Jeffords, Carper, Clinton, and Obama.
    Chairman Inhofe. The Committee will come to order.
    Let me start by recognizing Senator Vitter. He has to 
preside in just a few minutes. So if you would like to do an 
opening statement, I will defer to you for that purpose.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you very much, Mr. Chairman, and 
thank you for holding the hearing today. I think this is very 
important. I also want to thank all of our witnesses for coming 
to testify today about this very important issue.
    As our economy continues to grow and create more 
opportunities for more Americans, clearly our energy 
consumption continues to grow, even as efficiency grows 
significantly. So improving our permitting process and making 
it more efficient is very important. It is important to develop 
new energy sources, and that is critical to fuel the growth of 
jobs and the economy.
    By refining the permitting process, our Nation could focus 
on producing more energy domestically and reducing our reliance 
on foreign energy sources. Unfortunately, the way it is 
structured now, the National Environmental Policy Act, NEPA, 
has created obstacles that are very costly and slow progressing 
and even block projects rather than assess their environmental 
impact and move them forward.
    Again, in saying this, I do not quarrel with the stated 
goals of NEPA; I quarrel with how it is achieved in practice, 
which is very cumbersome, very inefficient, very uncoordinated, 
and that tends to not achieve the stated goals of NEPA but 
simply slow down all projects that must go through that 
process. So the permitting process needs to be realistic and 
achievable if we intend to reduce our Nation's dependence on 
foreign energy sources and increase our domestic energy 
productivity.
    Cooperation among all Federal and State agencies could 
simplify the permitting process by focusing on common energy 
objectives that would eliminate conflicting agendas that hold 
up the approval and review process. Participating agencies 
working together can improve factors such as certainty and 
timeliness that impact that permitting process.
    However, a definite time line would provide greater 
certainty for the review process since it is frustrating when 
not all of the participating agencies respond in a timely 
manner when issuing permits. Without processing the permits in 
a timely manner, development of necessary energy infrastructure 
is delayed and even financially crippled in many cases. In 
Louisiana this has significant impact. We need to take 
advantage of advancements in technology to increase domestic 
production of our natural gas reserves, and that has a big 
impact in Louisiana.
    So once again, Mr. Chairman, I applaud you for bringing a 
lot of focus and resources to bear on this very important 
project. I think the bottom line is really this: it is fair and 
reasonable and necessary to set these environmental and other 
permitting processes, but once we establish those goals, it 
should be all of our goal to get that done in an efficient and 
coordinated manner. Once we establish the policy, folks should 
not then go and make the process as complicated and inefficient 
as possible, quite frankly, to frustrate that policy and to 
essentially reopen the policy debate. We should make the 
process efficient once we set the parameters and the policy. I 
think the White House's efforts at streamlining the process and 
you efforts in terms of your leadership position as Chairman 
are moving us in that direction. I thank you.
    [The prepared statement of Senator Vitter follows:]
    Chairman Inhofe. Thank you, Senator Vitter, and thank you 
for your loyal attendance here.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    This is a very significant Committee hearing. Before you 
leave, I will tell you one story. Back in real life I was a 
developer and I can remember building down in South Texas on 
the coast. At one time, I actually had to go to 26 governmental 
agencies to get a doc permit for a condo development. I got to 
thinking, in this information age, it is just not necessary, it 
should not be necessary. So I come, I am afraid to say, Ms. 
Buccino, with a little bit of a bias toward over-regulation as 
a general principle.
    I believe that this Nation really needs an energy policy. 
It is ironic that we are having this meeting right now when the 
Energy Committee is in the process of working on the energy 
bill in a different room. The lack of a comprehensive energy 
policy has detrimentally impacted the country in several was, 
and ultimately slowed down economic recovery.
    I have long said and I maintain that having a strong energy 
policy is a national security issue. I can remember when many 
years ago, back during the Reagan Administration, Don Hodell, 
who served as both Secretary of Interior and then also as 
Energy Secretary, he and I had a song and dance where we would 
go around and try to explain to consumption States that our 
dependence upon foreign countries for our ability to fight a 
war is not an energy issue, it is a national security issue. 
Nobody believed it at that time. I was alarmed because we were 
dependent upon foreign countries for 33 percent of our oil. 
Today, it is twice that. So we have been moving in the wrong 
direction.
    Environmental policies have had a significant and varying 
effect on many of the energy problems this country faces--the 
high natural gas prices, the lack of refining capacity, which 
we have dealt with here in this Committee at several hearings 
over a number of years, and the insufficient energy 
infrastructure, just to name a few.
    With great foresight, President Bush recognized the need 
for a comprehensive national energy plan some 4 years ago this 
month but implementation of many of his recommendations has 
been frustrated in Congress. Environmental concerns are among 
the principal reasons for Congress' failure to address 
America's energy needs.
    Even the Federal Reserve Board Chairman Alan Greenspan 
noted as much, stating, ``We have been struggling to reach an 
agreeable tradeoff between environment and energy concerns for 
decades . . . it is essential that our policies be 
consistent.'' And Chairman Greenspan delivered this warning 2 
years ago before another Senate Committee.
    I would ask my friends to remember that the Senate has been 
trying unsuccessfully to move an energy bill since the 107th 
Congress. I am hopeful that we will be able to develop the 
needed consistency and send an energy bill to the President 
this year.
    The purpose of today's hearing is to review the permitting 
of energy projects, and to consider whether permitting has 
incorporated the consistent approach Chairman Greenspan 
referred to; that is, balancing the needs of the environment 
and the energy needs. As an Oklahoman and someone very familiar 
with the oil and gas industry, it might surprise my friends 
that this hearing is energy source neutral. We are not here to 
discuss the environmental merits of one type of energy over 
another.
    Rather than focusing on any one energy source, I am 
concerned about the entire process. I think that the following 
quote from an energy interest summarizes the issues permit 
``review needs to be completed in a timely manner'' and 
``slippage undermines the credibility of the process and drains 
the energy and resources of the members of the public; 
indefinite delay harms not only the project proponent and those 
who see the benefits flowing from the project, but also damages 
stakeholders.''
    The fact of the matter is that the country needs all forms 
of energy and requires a diverse fuel mix to maintain economic 
progress and ensure a clean environment.
    Regardless of the type of energy, producers cannot find, 
harness, extract, or transport energy unless they can secure 
the necessary environment-related permits. The collective 
energy industries consistently claim that the requisite Federal 
permits and legal challenges from special interest opposition 
groups have prevented them from producing energy or delivering 
it to consumers and businesses.
    President Bush recognized the complexities involved in the 
permitting process in issuing Executive Order 13212, which 
called for Federal agencies to expedite permitting and 
established a White House Task Force on Energy Project 
Streamlining. And the Federal agencies have improved their 
permitting but a lot more can be done.
    I am not a bird expert. I do not know how much bird 
research should be done before building electricity-generating 
wind turbines. Is 6 months of state-of-the-art radar research 
sufficient, or is 3 years too much? I do not know.
    However, I am confident that the project's proponents would 
like to know with certainty the proper reasonable approach at 
the beginning not at the end of the Federal permitting process. 
A lot of you do not understand that it is predictability that 
is necessary. You cannot make the necessary investments and do 
the necessary things, very similar to our highway bill that we 
are doing right now, you cannot just operate on 6 months 
extensions, you have to have a five or 6 year bill where you 
can plan in advance what to do and you can venture your capital 
and sell your story.
    Environmental regulations have increased demand for natural 
gas. Several special interest environmental groups celebrated 
natural gas over other energy fuels. Indeed, nearly all new 
electricity generation is fueled by gas over coal. Yet today, 
some of these same groups have worked against building the 
necessary infrastructure to transport their clean-burning 
bridge fuel.
    For example, the California and Nevada chapters of the 
Sierra Club voted to oppose both on and offshore LNG facilities 
even though the club favors gas over coal and nuclear energy. 
Similarly, some of the States that have the greatest demand for 
gas have not increased the infrastructure to deliver it. 
California, for example, has opposed the permitting of 
Liquefied Natural Gas and pipeline infrastructure even though, 
according to California's Energy Commission, local air quality 
regulations require natural gas generation.
    California certainly is not alone in contributing to or 
facing a regulatory paradox. According to a report from the New 
England ISO, the nonprofit operator of New England's power 
grid, natural gas in the region was increasing from 16 percent 
in 1999 to a projected 45 percent in 2005; however, the States 
lacked the needed infrastructure to transport and distribute 
the gas. The ISO Chairman Berry stated that ``the long and 
complicated Federal permitting process for building new 
interstate pipelines is a greater obstacle than the technical 
construction work.''
    Some special interest groups would like oil and gas 
companies to go above and beyond what are required by 
environmental regulations. They would also like for operators 
to monitor potential environmental impacts. Council on 
Environmental Quality Chairman Jim Connaughton has suggested 
incorporating adaptive management, which includes monitoring, 
to a wide variety of projects. These are fine goals in concept, 
but how do current permitting requirements provide for and 
encourage such a flexible approach?
    Lastly, I would like to recall Chairman Greenspan's 
warning. He framed the issue as a tradeoff between energy and 
the environment. It is unfortunate that anyone describes 
balancing these two critical interests in terms of a tradeoff, 
sometimes that is thought of in disparaging ways.
    So I look forward to hearing from both sides of those 
individuals who are here representing environmental concerns as 
well as for those who are involved in the permitting process 
and those trying to get permits.
    [The prepared statement of Chairman Inhofe follows:]
    Chairman Inhofe. For the record, I would like to enter 
Senator Lieberman's statement in its entirety as if he were 
here and delivered it.
    [The prepared statement of Senator Lieberman follows:]
    Chairman Inhofe. With that, let me just go over who we have 
here. Mark Robinson, a Federal non-partial witness, is the 
director of Office of Energy Projects, permitting pipelines and 
liquefied natural gas, the Federal Energy Regulatory 
Commission. Dennis Duffy is the vice president of CapeWind, and 
Mr. Duffy will discuss how the permitting process of the 
proposed wind farm off Cape Cod has been overly burdened and 
allowing opponents to use stall and delay tactics. Sharon 
Buccino--is that pronounced right--is the attorney for the 
NRDC, and she will testify that existing Federal permitting 
process is adequate, and we will be looking forward to her 
testimony. And then Ron Hogan is the general manager of 
Questar, another one who has been involved in the permitting 
process.
    Why not start, Mr. Robinson, with you. Let me tell you, 
even though we do not have many members now, members will be 
coming in and out, and all members are represented by staff. So 
there will be questions that will be submitted to you for the 
record.
    We will go ahead and start with you, Mr. Robinson.

STATEMENT OF J. MARK ROBINSON, DIRECTOR OF THE OFFICE OF ENERGY 
         PROJECTS, FEDERAL ENERGY REGULATORY COMMISSION

    Mr. Robinson. Mr. Chairman, thank you very much. My name is 
Mark Robinson and I am the director of the Office of Energy 
Projects at FERC. We are responsible in our office for 1,600 
hydro-electric projects, their licensing, inspections, safety 
and security of those projects. We also are responsible for 
certificating about 500 to 2,000 miles of interstate natural 
gas pipelines per year and storage facilities, and also the 
authorization, safety and security of LNG terminals.
    I would like to make sure that I identify my bias, I think 
we all have those. I have been involved with siting energy 
infrastructure for the Commission for 28 years now. Over those 
28 years I have watched this process become more byzantine with 
every passing year. My concern is that we may be getting to a 
point in the complexity of the permitting process where 
ultimately the first dollar of investment will not occur and 
those dollars will migrate elsewhere, including overseas.
    My testimony goes specifically to three issues that I think 
need to be addressed in enhancing the permitting process. One 
is the parochial interests that sometimes override regional 
needs; two is what I call agency creep, where different 
agencies use an aspect of the project and their authority 
concerning that aspect of the project to make the overall 
public interest determination; and three is what I term 
distributed decisionmaking. I would like to focus in these oral 
comments on distributed decisionmaking and how that affects 
permitting of energy infrastructure.
    By distributed decisionmaking, I mean that everybody has a 
bite of the apple at this point. If you look at my testimony 
and the charts that I have attached to it, you will see for LNG 
facilities, as an example, in some States you are looking at 
30, 40, 50 permits that have to be acquired by the proponent of 
that project before they can go forward. That in itself is a 
problem. But when you look underneath just the chart to see how 
that works, you can see how there is sort of an insidious 
aspect of permitting that can stop projects.
    One is the aspect that one agency will wait for another. 
They will say we cannot do this until they do that. So you end 
up with a sequential aspect of the permitting process that 
seems to go on and on and on. Two, everybody seems to want to 
take their particular permit and make that the last action that 
occurs. They want to wait until everybody else sees what is 
going on and then they take action. Well, if you have several 
agencies that are trying to do that, it becomes almost a 
bidding contest to see who gets to be the last person to say 
yes or no. That can also affect the ability for a project to 
move forward.
    The effect of this distributed decisionmaking is that 
ultimately that projects that are in the public interest are 
not constructed. They die a death of a thousand cuts, with 
everybody taking a little bit of the project away as they go 
through the permitting process until the project just dies and 
goes away. And I have seen that over and over again and with 
increasing frequency.
    The cure for this, of course, is pretty plain--you vest all 
authority with one agency for all the laws that are affected 
and hold them responsible. That is never going to happen. The 
genie is way too far out of the bottle for us to ever go back 
to having an agency decide whether or not energy infrastructure 
should or should not be built, there are too many interests 
involved. But that does not mean you cannot discipline that 
distributed decisionmaking, and that is what I would call for 
today.
    If we lack that discipline, if we do not acquire it--and 
Memorandums of Understandings, and MOAs, and administrative 
actions all seek to do this but they do not have the force of 
law, if we do not discipline that process--what we will end up 
with is no decisions at all as this becomes increasingly more 
complex. To discipline that process, we are calling for a 
three-pronged approach to rational siting.
    The first prong of that is identification of an agency 
having exclusive jurisdiction for the overall siting decision. 
That does not mean that anyone else loses their authority--the 
Clean Water Act would still apply, the Endangered Species Act 
would still apply--but those projects and those agencies 
dealing with that would have to recognize that is an aspect of 
the project, not the overall public interest determination.
    The second prong is the development of one Federal record. 
This is just good government. It is a matter of taking all 
those agencies that have a role in this, who play a role, 
forcing them through law to work together to develop one record 
and then everybody acts from that record in a timeframe set by 
the lead agency. If they fail to make that decision in that 
timeframe, their decision will be conclusively presumed. That 
is the discipline applied to them to take an action within a 
timeframe set by the lead agency.
    The third prong of that rational siting process is direct 
appeal to the court of appeals. It does not do any good to have 
all those agencies make their decisions and then all of the 
appeal processes run off into various different arenas to try 
to be resolved over years and years of process. We need 
immediate appeals, a one-stop to go to the court of appeals to 
review those actions by those permitting agencies.
    If we have rational siting that would affect any type of 
energy infrastructure, what we will gain from that is certainty 
of the decisionmaking process. And with certainty, that first 
dollar that people want to invest to develop infrastructure 
will be invested, it will not migrate overseas, and we will get 
decisions on what is and what is not in the public interest to 
develop in this country. Thank you, sir.
    [The prepared statement of Mr. Robinson follows:]
    Chairman Inhofe. Thank you, Mr. Robinson. What is good 
about your opening statement is you actually come out with a 
specific recommendation. We do not hear that very often. I 
appreciate that very much.
    Mr. Robinson. Well, I have been dealing with this a long 
time but I feel very strongly that is about the only thing we 
can do to try to bring some sanity to the process.
    Chairman Inhofe. We will be interested to explore that.
    We have been joined by Senator Warner, who is the senior 
member on this Committee; however, I Chair it because he is the 
Chairman of the Armed Services Committee. Senator Warner, do 
you have an opening statement?
    Senator Warner. Thank you, no. I would like the opportunity 
when Mr. Duffy completes his opening comments, if I could just 
spend a few minutes with him.
    Chairman Inhofe. In some questions, you mean?
    Senator Warner. Yes. I will not take long, and I thank you 
for the courtesy, Mr. Chairman.
    Chairman Inhofe. All right. We will go ahead and move on to 
Mr. Duffy. And after that, I know Senator Warner cannot stay 
very long, we would recognize Senator Warner to pursue his 
request.
    Mr. Duffy.

    STATEMENT OF DENNIS DUFFY, VICE PRESIDENT OF REGULATORY 
               AFFAIRS, CAPEWIND ASSOCIATES, LLC

    Mr. Duffy. Thank you, Mr. Chairman. My name is Dennis J. 
Duffy. I am the vice president of regulatory affairs for 
CapeWind Associates.
    For the past 5 years, CapeWind has been developing the 
Nation's first offshore wind generation project. The project 
would be located approximately five to ten miles off the 
nearest point of land on the coast of Massachusetts. It would 
generate up to 468 megawatts of clean and renewable energy, 
with no fuel requirements and no air emissions. This amount 
would represent approximately 75 percent of the annual electric 
needs of Cape Cod and the Islands of Martha's Vineyard and 
Nantucket.
    The principals of our company have been in the energy 
business for more than twenty-five years. We have developed and 
operated some of the most efficient gas-fired plants now 
operating in the United States. Now, in direct response to 
State mandates for renewable energies, the so-call ``renewable 
portfolio standards,'' we are focusing upon wind energy 
development.
    We are confident that wind technology has now advanced to 
the point where it is both proven and reliable and can play a 
much more meaningful role in our national energy supply. In 
order to realize the full potential of this source, however, we 
need to ensure that our national energy and environmental 
policies are implemented in a consistent manner.
    The CapeWind project would consist of 130 wind turbines 
located in Federal waters connected to the land-based power 
grid via two submerged cables. Although this is the first 
offshore wind energy farm proposed in the United States, in 
Europe offshore projects of this type have been operated 
successfully for more than a decade. The CapeWind project------
    Senator Warner. Excuse me. I missed what you said. What had 
happened not in a decade?
    Mr. Duffy. The European projects have been operating for a 
decade or more now. The project would be located on a shoal out 
of shipping lanes and would impose no restrictions on current 
uses of the area. CapeWind enjoys strong support from 
environmental, consumer advocacy, and labor groups, and a Cape-
based grassroots support organization with now over 4,000 
members.
    The Federal regulatory process under current law is both 
thorough and comprehensive, but, importantly, it lacks any 
requirement that would limit the duration of project review 
period, which in some cases can open the door for opponents to 
try to use delay as an end in itself. After extensive analysis 
of potential sites, we submitted our application to the Army 
Corps in November of 2001. The project has been undergoing 
regulatory and public scrutiny for more than three and one-half 
years, including the preparation of an Environmental Impact 
Statement under the NEPA.
    The Army Corps has acted as the lead Federal agency in a 
process that has included 17 Federal and State participating 
agencies and which has afforded exceptional opportunities for 
public involvement, including nine public hearings. During this 
process, an exhaustive record has been put together under a 
public interest standard which has included a whole range of 
issues, from environmental impacts, project aesthetics, cost 
implications, and the need of the public.
    At the same time, there has been an extensive parallel 
proceeding. In 2002, we filed with the Massachusetts Energy 
Facilities Siting Board for authorization for the transmission 
facilities which would cross the waters of the Commonwealth. I 
am happy to report that after a two and a half year review, 
with 20 days of expert testimony and over 50,000 pages in an 
evidentiary record, on May 10 the Massachusetts Energy 
Facilities Siting Board approved our petition based largely on 
a finding that our energy would be needed for three purposes: 
to meet the growing need for the region's power; to lower the 
prices to electric ratepayers; and to offset air emissions from 
fossil generation.
    Notwithstanding the review we have gone through over the 
last three and a half years, however, we still face additional 
processes of uncertain duration. In particular, the Army Corps 
issued a draft EIS in November of 2004 and has received more 
than 5,000 comments on the draft. While most of those comments 
were positive, the comments also included continued demands 
from project opponents that multiple years of additional field 
studies now be completed. Some, for example, call for the Corps 
to now evaluate nuclear and fossil plant proposals on an equal 
footing, notwithstanding the fact that we proposed this project 
in specific response to mandates for renewable energy.
    In conclusion, CapeWind and the other wind projects that 
will follow present great potential for meeting the multiple 
objectives of national energy and environmental policy, 
including decreased reliance on imported fuel, reducing and 
offsetting air emissions, and lowering the cost of electricity 
to the ratepaying public, all with minimal environmental 
impact.
    Based on our experience, we have two suggestions for 
improving the process. First, we believe that national policy 
objectives would be better served if environmental review of 
proposed energy facilities were conducted in a more timely 
manner, perhaps pursuant to statutory timeframes that would 
prevent delay tactics from crippling an otherwise worthy 
project. And I point out in that case, for example, many of the 
New England States have adopted energy facilities siting acts 
which specifically limit the review period to a 12-month 
process for major energy projects.
    Second, because the process involves so many agencies with 
often conflicting agendas, it is important that the process 
appropriately recognize the clearly stated Federal and State 
energy objectives, as well as the societal tradeoffs inherent 
to any major energy project. Thank you.
    [The prepared statement of Mr. Duffy follows:]
    Chairman Inhofe. Thank you, Mr. Duffy. Senator Warner?
    Senator Warner. Thank you, Mr. Chairman. I will not be too 
long. I will put a number of things with unanimous consent in 
today's record.
    Let me make it clear, Mr. Duffy, you do not know me, I do 
not know you, and this by no means is any personal criticism to 
you. But I became involved in this issue, as you probably know, 
because of several concerns.
    First, I think I have got to digress a moment to speak 
about a personal aspect of this. For many years I was married 
to a wonderful person whom is still a very dear and valued 
friend, I guess it was about 25 years ago now, 26 years ago 
when we unfortunately parted ways, but she does have a home in 
the Cape and I was actually married there to that wonderful 
woman. Every time I try and get into this fray, they conjure up 
this woman, who is very private, and three children of mine who 
occasionally visit the house.
    I just think it is fine for anyone to heap criticism on me, 
but I really resent, and it is not a part of your organization, 
but the local press has seized on this as why I have questioned 
this thing. I have not been to the Cape personally for a number 
of years, although I plan to go this year to a wedding for 3 
days. So when I make a sighting, I am sure they will conjure up 
some more stories. But let us put that to one side.
    Here is my concern with this. Because it really grabbed my 
interest in several ways. One, yes I have seen the Cape for 
many years, and that part of America to me is one of the great 
treasures--the next witness, Ms. Buccino, if you could listen 
to this--one of the great natural treasures in America is that 
confluence of islands up there, Martha's Vineyard and the Cape 
and so forth.
    It is a marvelous sanctuary for birds and wildlife. It is a 
sailor's haven, a fisherman's dream. And I could go on and on 
about that part of America. In my years, I have been to every 
place in this country one way or another just about.
    I have been very disturbed about the environmental 
community not focusing on this. The environmental community has 
sort of taken the hear no evil, see no evil, speak no evil, put 
hands over their face and look the other way because they 
realize that possibly some modest measure of energy can be 
derived from wind power and, therefore, all the evils of the 
other sources of energy is where they direct their attention.
    But I have never quite understood why they did not step in 
to look at this magnificent piece of America and speak on it in 
a more objective and authoritative way. But put that aside. 
That is one concern I have is that it is just a treasure of 
this country.
    Second, let us go back--and I am going to put in today's 
record a letter I wrote, Mr. Chairman, to the Army Corps of 
Engineers.
    Chairman Inhofe. Without objection.
    Senator Warner. As a member of this Committee, I have some 
say about the Corps, and as a member of the Armed Services 
Committee, we have some things to say about the Corps. And we 
had before this Committee, Mr. Chairman, the former Assistant 
Secretary of the Army, not the former, he is currently again 
acting, for Civil Works, Mr. Woodley, and I am going to put in 
today's record the full testimony of the Assistant Secretary.
    Chairman Inhofe. Without objection.
    Senator Warner. He stated that he did not believe the Corps 
has clear statutory authority to grant Federal permits for wind 
power projects in the Federal offshore shelf waters. And this 
is what I wrote to the Corps of Engineers, they are having this 
open hearing on this:
    ``The Corps is reviewing an application for a navigation 
permit under section 10 of the Rivers and Harbors Act of 
1899''--1899. The only windmills or wind power that the Member 
of Congress had any knowledge about then maybe was Don Quixote, 
as you know, and a few local farmers' windmills and something 
else. They never envisioned this. And to think that you are 
moving forward on this project under that ancient statute, 
which in my judgment and the judgment of the Acting Assistant 
Secretary of the Army for Civil Works, just does not have the 
statutory framework to support this decision.
    I go on: ``The stated purpose of this statute is clearly to 
prevent obstructions to navigation in waters of the United 
States. It does not provide authority to the Corps of Engineers 
to grant property interests in those CS lands, as would be the 
result should this permit application be granted. The 
legislative history of the 1899 Rivers and Harbors Act shows 
that section 10 was originally enacted to remedy the inability 
of Federal common law to prevent obstruction to navigation. The 
law and implementing regulations have been broadened somewhat 
over the years and now includes a public interest test. But its 
essential purpose has not changed.
    ``The jurisdiction of the Corps of Engineers as provided in 
the 1899 Rivers and Harbors Act and implied authorities under 
the Outer Continental Shelf Lands Act are wholly inadequate to 
evaluate the construction proposed of 130 windmill towers in 
U.S. waters to properly protect our environment, to ensure that 
navigation on our seas is not impeded, to guarantee that public 
assets are not granted to private developers for free, to 
provide for appropriate compensation to the Federal taxpayer 
for the private use of public lands, and to ensure the careful 
management of other Federal interests. The 1899 statute simply 
cannot, and should not, be stretched 100 years later to embrace 
the unique concepts of the proposed project.''
    I am not against the concept of wind power. I simply say, 
if it is going to be done, do it right. And the responsibility 
in large measure falls upon the Congress. When the energy bill, 
Mr. Chairman, is brought up, I intend to address this issue on 
the floor. I tried last year in the context of the Military 
Act, which the Chairman and I worked on, to ask for a 1 year 
moratorium to give Congress the opportunity to step in and 
establish a regulatory framework for these offshore lands, such 
that you could proceed under a current law of Congress 
specifically designed to take care of the wind power.
    Now these wind units are proposed off the shore of 
Virginia, and that is really the underlying reason why I am so 
involved in this. I do not understand how you can put this much 
private capital behind a project that really has no foundation 
in statutory law for the regulatory process. Yes, you have been 
at this for 3 years-plus. I guess I am slightly amused by that. 
I have been for 15 years trying to get a dam in Virginia with 
the Corps of Engineers. I have not given up by any measure, but 
these processes are somewhat slow.
    So I have stated my case, Mr. Chairman, and I would like to 
have our distinguished witness reply, to the extent that he 
wishes. And to save time, you can have a chance to look over my 
letter, and I would ask that maybe you would like to expand 
your remarks and place them in today's record after you have 
had an opportunity to reflect on this.
    [The referenced materials follow:]
    Mr. Duffy. Thank you, Senator, I would welcome that 
opportunity. Let me just say, I fully appreciate your concerns, 
but on the legal analysis I think we respectfully disagree on a 
couple of points, which I can explain somewhat.
    The way we have read section 10 of the Rivers and Harbors 
Act is that it was always intended to be a general delegation 
of authority to the Army Corps and not limited to any specific 
type of structure or for a specific purpose.
    And for example, we looked back over a long history of 
courses of dealing where the Army Corps has used its section 10 
authority for whole host of different types of projects. Some 
have included things like rerouting rivers; others, highway 
construction projects, bridge construction projects; and others 
offshore have included things such as filling hundreds of acres 
of waterways of the Federal waters for things such as airport 
expansions.
    And more specifically going offshore, the section 10 
authority has been used for a whole range of authorities which 
have been recognized by court decisions which have included 
things such as offshore cable projects, weather towers, radio 
stations. There is a whole range of things that the Corps has 
done historically with an established course of dealing which 
has been upheld in the courts.
    I would also point out that we, more than two and a half 
years ago, got a preliminary permit to place an offshore 
weather station with a 200-foot tower for taking wind data, 
which has been in service now for over 2 years. The opponents 
to our project appealed the grant of that permit under some of 
the very same reasons, arguing that the Army Corps' offshore 
structure was intended to be very narrow and limited, and in 
fact limited only toward extractive operations.
    We have now gone through 2 years of Federal court 
litigation with two decisions at the district court in 
Massachusetts, and two decisions at the first circuit, which we 
think confirm our original reading that the congressional grant 
of authority to the Corps was not meant to be limited but it 
was general in nature and extends beyond extractive structures.
    But I think probably more importantly to the policy 
question, we feel that under current law the structure is in 
place to give a full and fair regulatory review to the 
substantive issues.
    Senator Warner. What structure is in place?
    Mr. Duffy. Well, I would say the structures are the public 
interest review that the Army Corps applies under any section 
10 review process, which includes the whole range of all likely 
detriments and benefits that might result from the project, 
which are going to include issues such as aesthetics, tourism, 
conservation, fish and wildlife impact, as well as current uses 
of the area.
    And that is why the draft EIS which was released after the 
first phase of the project included over a 4,000 page analysis 
of all these issues. And I would point out that, in addition to 
the process being driven by the broad public interest test of 
the Corps' statute, it is also being done pursuant to the 
National Environmental Policy Act, where it is proceeding in 
line with the rules and procedures established for an 
environmental impact statement, which has involved 19 
participating agencies both from the Federal and the State 
level.
    So I recognize fully the type of issues that you raised in 
particular. I know the Cape very well. It is very special to me 
as well. But I feel that when you stop and look very closely at 
the process which has happened so far, including the 
Massachusetts review and approval which we just got a couple of 
weeks ago, as well as the Federal process, I think the analysis 
really shows a careful balancing which recognizes that there 
are going to be detriments to this project, like any energy 
project, but tends to view those in the overall scheme where 
they are at least weighed and measured against the potential 
benefits.
    We just think when people see the final environmental 
impact statement we really believe that the merits of the 
projects are going to be far in excess of the detriments. We do 
not dismiss the detriments, but we think on balance the project 
makes sense.
    Senator Warner. I came within a millimeter of getting my 
statute of a year's moratorium through. I will not tell you 
what happened in the wee hours of the morning, but one 
individual was able to stop it in the other body. That is the 
way we do business up here. I am not complaining. I have done 
it myself.
    But I came up through the legal profession and I just say 
to myself, if I were in your position, as an industry, not just 
your company, as an industry, you should have come to the 
Congress and said, look, we are first cousins to the oil and 
gas industry and there has been a framework of law and 
regulation covering their offshore drilling for years and it 
sets out clearly the criteria, the environmental concerns, a 
whole framework is there.
    You should, in my judgment, be treated fairly under that 
type of framework of law, rather than fumbling around and 
trying to squeeze an 1899 statute to get under. Because some 
Federal court someday might just slam you down and say, you 
know, those Members of Congress never were envisioning this 
type of energy, the source, as fitting into a navigation 
statute.
    And there you are, and all your shareholders and the rest 
of the world, and all the turbulence in the Cape, and 
everything else either comes to a standstill or collapses. Why 
has the industry never come to the Congress and said come on 
Congress, this is a potential source of energy, we would like 
to do it in the proper way, give us a framework of laws?
    Mr. Duffy. I understand your concern there, Senator, and to 
some extent I do share it. But I think on one level we do feel 
sound in our legal position.
    But we, both our project as well as the industry generally, 
have been supportive of some of the legislative proposals which 
have been circulating for the last 2 years, including the 
Administration proposal which was introduced last session 
originally as the Cuban amendment, now included in the House 
version of the energy bill and I believe also in the version 
that is circulating in the Senate.
    Senator Warner. Well, we will see what comes out of that. 
That has sort of made my point. But there is also the interest 
of the Federal taxpayer. I think you will grant me the common 
ground of agreeing that in the oil and gas situation that 
taxpayer is protected when U.S. property is used for purpose by 
the private sector to create a product, whether it is oil and 
gas or, in this instance, wind. But the taxpayer is not 
protected as you are proceeding. Am I not correct there?
    Mr. Duffy. You are correct, Senator. Under current law, 
only extractive uses of the Outer Continental Shelf pay a 
royalty back to the Government, oil and gas extractions under a 
mineral lease. Non-extractive activities such as the Ocean 
Thermal Energy Act, cables, communications systems, are 
permitted but they do not pay a royalty. And we do not oppose 
that. The current provisions within the bill that would address 
offshore would provide for compensation to the Government, and 
we have no problem with that.
    Senator Warner. I thank you for your indulgence and your 
courtesy. We will continue to work away. And I thank the Chair. 
I will put some things into the record. I will provide you with 
a copy of my letter to the Corps of Engineers which sort of 
states the case, maybe you have it, I do not know, but I will 
give you a copy. And thank you very much.
    Mr. Duffy. Thank you, Senator.
    Chairman Inhofe. Thank you, Senator Warner.
    So the other members who have arrived will know where we 
are, we have completed opening statements, and we have heard 
the opening statements of Mr. Robinson and Mr. Duffy but not 
from the other two witnesses yet.
    At this point, if any, or all of you, want to make an 
opening statement, I only ask that you try to confine it to 
four or 5 minutes. In order they came in, I believe Senator 
Chafee is first.
    Senator Chafee. I will submit mine for the record, Mr. 
Chairman, so we can continue with the hearing.
    [The prepared statement of Senator Chafee follows:]
    Chairman Inhofe. Thank you, Senator Chafee. Senator Carper?
    Senator Carper. I have a statement I would like to submit 
for the record, sir. I will say that among things I discuss in 
my statement for the record is the siting of LNG facilities 
around the country and the concern that we have certainly in 
Delaware and the Delaware Valley about the siting of those 
facilities without listening to the input of State and local 
governments.
    [The prepared statement of Senator Carper follows:]
    Chairman Inhofe. Thank you, Senator Carper. Senator 
Isakson?
    Senator Isakson. I will submit a statement for the record.
    [The prepared statement of Senator Isakson follows:]
    Chairman Inhofe. Thank you very much.
    Ms. Buccino, we are finally around to you. You are 
recognized. Please try to confine your statement to 5 minutes 
if you could.

STATEMENT OF SHARON BUCCINO, SENIOR ATTORNEY, NATURAL RESOURCES 
                        DEFENSE COUNCIL

    Ms. Buccino. Good morning. My name is Sharon Buccino. I am 
an attorney with the Natural Resources Defense Council. NRDC is 
a nonprofit organization. We have over half a million activists 
and members across the country. We work to protect the 
environment, but for the humans living in it.
    I, like you, want to make energy permitting work better. I 
have had the privilege to work with ranchers, farmers, 
homeowners across the West as energy development has come to 
their communities. Domestic energy production, the work of 
companies like Questar, is important. The permitting process is 
what allows this development to go forward in a way that 
identifies community concerns and addresses them. The 
permitting process is what gives citizens a voice in the 
government decisions that affect their lives.
    I would like to spend the few minutes I have here to 
address the National Environmental Policy Act, known as NEPA. 
NEPA was signed into law in 1970 by President Nixon. Since then 
it has served as a valuable tool to produce both informed and 
accepted Government decisions. It has helped citizens protect 
their communities and enhance the quality of their lives. NEPA 
has also helped Federal officials better meet the needs and 
interests of the public they serve.
    NEPA improves projects. I was involved in a seismic 
exploration project in the Nine Mile Canyon region of Utah. 
This is an area that the State of Utah has described as ``an 
outdoor museum.'' The Bureau of Land Management describes the 
area as ``the greatest concentration of rock art sites in the 
U.S.'' This project involved 60,000 pound trucks and they used 
explosives to collect data about oil and gas resources. It was 
in a very sensitive, arid area in Utah's canyon lands.
    And as a result of the review process under NEPA and also 
under the National Historic Preservation Act, the company 
conducting this exploration took additional steps to protect 
those natural and cultural resources that were in the area. The 
company agreed to additional monitoring and mitigation. In 
fact, just recently in a USA Today article, the BLM manager for 
that project said, ``I can't imagine this project without a 
process like (this).''
    NEPA gives people a voice. You will find that many of your 
constituents, from city council members to homeowners, care 
deeply about NEPA. They care about having a say when the LNG 
facility may be coming into their area, when a gas company 
wants to put a coal-bed methane well in their backyard, when a 
highway is proposed through their neighborhood. I urge this 
Committee and Congress to work to enhance the public's voice 
and not silence it.
    There are several provisions that have actually been 
introduced and passed on the House side in the energy bill, 
H.R. 6, that take us in the wrong direction. I will just 
highlight one, which is section 2055. It removes completely 
from the NEPA process numerous oil and gas activities, 
including the seismic exploration that I just described. It 
provides that those activities shall not be subject to review 
under NEPA. Rather than working to improve the review process, 
this provision simply eliminates it. Instead of using the NEPA 
process to identify and address concerns and potential adverse 
impacts on the public's health, livelihood, and communities, 
this provision excuses the Government and industry from 
listening.
    I urge you to fight to keep energy legislation clean of 
provisions that compromise environmental protections and public 
participation. In the past, this Committee has stood strong in 
defense of NEPA, the Clean Water Act, the Clean Air Act, the 
Safe Drinking Water Act, and I urge you to stand strong now.
    Finally, one last point I would like to make is that we can 
increase domestic energy production without weakening 
environmental protections. Getting permits is not preventing 
oil and gas companies from drilling. In fact, the Bureau of 
Land Management is issuing record numbers of permits. In the 
last fiscal year, they issued over 6,000 permits, which was up 
from about 3,800 the previous fiscal year. And many of these 
permits are actually going unused right now.
    So in conclusion, because of the increasing demands being 
made on our public lands and our shrinking open space, NEPA is 
needed now more than ever. I remain inspired by that vision 
that was in NEPA--it is a future where man and nature can exist 
in productive harmony. It is a future where our valuable public 
lands serve diverse interests. I hope that this is a vision 
that you all share and will fight for as well. Thank you.
    [The prepared statement of Ms. Buccino follows:]
    Chairman Inhofe. Thank you, Ms. Buccino.
    We have been joined by some other members. They have agreed 
not to have opening statements. So we will move right along.
    Mr. Hogan.

    STATEMENT OF RONALD E. HOGAN, GENERAL MANAGER, QUESTAR 
               EXPLORATION AND PRODUCTION COMPANY

    Mr. Hogan. Good morning, Chairman, and members of the 
Committee. My name is Ron Hogan, general manager for the 
Pinedale, Wyoming division of Questar Market Resources.
    I would like to describe our efforts to obtain permission 
to reduce our environmental impact to levels substantially 
below existing regulations, while increasing worker safety and 
stabilizing our contribution to the local community. Some of 
the special technology and innovative solutions I will describe 
shortly may or may not be applicable to other oil and gas 
development projects, but perhaps our experience can help this 
Committee understand the challenges we face in today's complex 
regulatory environment.
    Pinedale is a small community in Sublette County, Wyoming. 
According to the current estimates, there are over 20 trillion 
cubic feet of recoverable natural gas in the Pinedale 
anticline, which is about 1 year's supply of natural gas for 
the entire country. In July of 2000, the Pinedale field office 
of the Bureau of Land Management published a record of decision 
that outlined the guidelines and restrictions for oil and gas 
exploration and development on the Pinedale anticline. This 
decision was the result of a comprehensive NEPA process that 
included significant public involvement.
    Among the many guidelines imposed by the record of decision 
was a restriction prohibiting drilling operations during the 
winter to minimize possible disruption to deer herds, other 
wildlife, and their habitat. To meet these restrictions, 
Questar was forced into a condensed, summer-only drilling 
schedule. Under these restrictions, we projected it would take 
nearly two decades just to fully develop the gas reserves 
available on our acreage, thereby delaying the delivery of much 
needed gas.
    While operating within these restrictions, we witnessed 
some of the unintended consequences of the summer-only 
schedule. For instance, the shortened season made it unfeasible 
and cost-prohibitive to apply available disturbance-limiting 
technologies like drilling directionally multiple wells from a 
single well pad.
    Also, it was difficult for us and our contractors to hire, 
train, and retain quality employees due to the seasonal part-
time nature of the work. This, in turn, created an annual boom-
and-bust economic impact on the local community. And perhaps 
most importantly, winter restrictions made better environmental 
mitigation measures economically unattractive or, in many case, 
physically unattainable.
    We did not feel these unintended consequences were the goal 
of the BLM's record of decision. Therefore, Questar voluntarily 
offered to engage in a multiyear, multimillion effort to 
explore ways that we could leverage the benefits of new 
technology, minimize environmental impacts, enhance the safety 
of operations, stabilize the impact on the local economy, and 
meet or exceed the established goals for the protection of 
local wildlife and habitat.
    The first step in our effort was to submit a request to the 
BLM for a permit to operate one drilling rig during the winter 
of 2002-2003. This would allow us to gain valuable scientific 
data and technical insight into whether a year-round 
development project could help avoid the unintended 
consequences of summer-only restrictions. In addition, we also 
voluntarily agreed to fund a University of Wyoming and Wyoming 
Game and Fish study that would help determine the real impact, 
if any, of natural gas development on wintering deer 
populations.
    Our request for an exception to the winter drilling 
restriction was approved by the BLM for the winter of 2002-
2003, as was a similar request for a one rig, one winter 
exception for 2003-2004.
    On April 15, 2004, we formally submitted a comprehensive 
proposal for long-term year-round operations, with certain 
restrictions, on Questar's acreage. I want to provide some 
quick highlights of our proposal so you can get an idea of the 
scope of our request.
    First, we proposed investing more than $200 million in 
directional drilling, thereby greatly minimizing surface 
disturbances and associated environmental impact.
    Second, we proposed expanding both the scope and the 
duration of the ongoing deer study to help design energy 
development projects that minimize disruption to wildlife and 
habitat.
    Third, we proposed building a $25 million water and liquid 
condensate pipeline system. This pipeline system eliminates the 
need for truck transport of produced water and condensate off 
the winter habitat area. At peak production from just our 
acreage, this system will eliminate more than 25,000 tanker 
truck visits in a single year. The result will be a significant 
reduction in traffic and air emissions from levels originally 
anticipated by the BLM.
    Fourth, we eliminated the need for flaring, which is used 
to clean up the production stream from new wells to remove the 
water and sand we use during the completion process.
    And last, we invested in busing our contractor's employees 
during the winter months and trucking necessary materials in 
bulk to the rigs in the fall to decrease traffic in the 
wintering wildlife areas.
    In summary, our proposal included investments of more than 
$200 million in onsite mitigation and outlined an approach that 
was scientifically based, field tested, and offered substantial 
benefits over the restrictions imposed by the 2000 Pinedale 
record of decision.
    To facilitate a thorough review and analysis of our 
proposal, we worked closely with local BLM officials, 
biologists, and experts from Wyoming Game and Fish, and elected 
officials. We received formal support of our proposal from 
Wyoming's Governor Dave Freudenthal, the Wyoming Game and Fish 
Department, U.S. Senator Craig Thomas, Wyoming State 
Representatives Monte Olsen and Stan Cooper, Pinedale Mayor 
Rose Skinner, as well as the Sublette County commissioners, the 
North American Grouse Partnership, and Trout Unlimited.
    We also recognized that the Pinedale community needed to be 
involved in the decisionmaking------
    Chairman Inhofe. Try to wrap up, Mr. Hogan, if you would.
    Mr. Hogan. Yes, sir. In November 2004, the Bureau of Land 
Management officially approved our request for the site-
specific limited year-round operations. I am proud of Questar's 
Pinedale project. Our company is committed to invest over $200 
million to achieve the benefits significantly above and beyond 
those required by existing regulations.
    But even with this commitment, our proposal is constantly 
at risk. We continue to get bogged down in a complex web of 
overlapping jurisdictions and a maze of regulatory requirements 
that many times simply defy logic. When you add to the equation 
those that take advantage of regulatory complexity to delay, 
litigate, and obstruct any energy project------
    Chairman Inhofe. Mr. Hogan, I am going to have to interrupt 
you. You are almost 2 minutes over. We have got to keep some 
time discipline here.
    Mr. Hogan. Thank you.
    [The prepared statement of Mr. Hogan follows:]
    Chairman Inhofe. Let me share with my panel members up here 
that the order of early bird and, going back and forth, will be 
myself, then Senators Carper, Chafee, Jeffords, Isakson, and 
Clinton.
    I will go ahead and start off. In my opening statement I 
made a statement that I will read again. I am going to ask each 
one of you whether you agree or disagree with this statement. 
So listen very carefully. What I said in my opening statement 
is, ``Environmental review needs to be completed in a timely 
manner and slippage undermines the credibility of the process 
and drains the energy and resources of the members of the 
public. Indefinite delay harms not only the project proponent 
and those who see the benefits flowing from the project, but 
also damages stakeholders.''
    I will start with you, Mr. Robinson. Do you agree with 
that?
    Mr. Robinson. Agree wholeheartedly.
    Chairman Inhofe. Mr. Duffy?
    Mr. Duffy. Absolutely.
    Chairman Inhofe. Ms. Buccino?
    Ms. Buccino. I agree with that statement.
    Chairman Inhofe. Mr. Hogan?
    Mr. Hogan. I agree, Chairman.
    Chairman Inhofe. Thank you very much. I thought that would 
be the case. This actually was a quote from a letter that came 
from 13 environmental groups, advocacy groups. So it seems that 
we do all agree, we have one area where we agree.
    Mr. Robinson, after your opening statement, I complimented 
you because you came out with something that was very specific. 
If you could abbreviate that for the members who were not here 
at the time, and then I am going to ask the other three if they 
agree with your comments on what I consider to be a reasonable 
solution.
    Mr. Robinson. First, I would like to make it clear that 
this proposal for a rational process for siting energy 
infrastructure does not in any way reduce the authorities of 
any other agency. What it does is to try to provide discipline 
to that process, something that we all work on and have worked 
on for years through administrative procedures, MOAs, and 
things of that sort.
    The first leg of that rational siting process is exclusive 
jurisdiction designated to a lead agency. What this would do 
would make it clear to all agencies that one agency is 
responsible for the overall public interest determination. 
Everyone else should focus on their aspect of the project, be 
it dredging for the Corps of Engineers, or water quality for 
the States.
    The second leg of the rational siting process is one 
Federal record development. All agencies involved in the 
decisional process should work together to create one record. 
That record would be used for all decisions at a single point 
in time under a schedule set by the lead agency. Should an 
agency fail to exercise their authority within that schedule--
keeping in mind that the lead agency has to look at all aspects 
of the project, so any schedule that would satisfy them should 
satisfy an agency that only has one aspect of the project--they 
would lose that authority. Their authority would be 
conclusively presumed.
    The third leg of that rational siting process is direct 
appeal of all of those decisions to the U.S. Court of Appeals. 
Instead of going off to the State administrative agency, then 
the State's courts, or to another Federal agency, and then the 
Federal courts, everybody would go at one time. It would 
shorten the timeframe and give a certainty to the 
decisionmaking process.
    Chairman Inhofe. OK. Mr. Duffy, what do you think of that?
    Mr. Duffy. I had not thought of it before today, but I like 
that approach very much, and let me just tell you why. It 
sounds to me very similar to the approach on energy projects 
that most of the New England States have taken for their State 
environmental review of energy projects. By adopting energy 
facility siting acts which delegate to a specific board the 
primary, the ultimate authority for the decisions for energy 
projects, all the other entities that would otherwise have 
jurisdictional roles are still involved in the process but when 
they review the project, rather than each issuing their own 
opinion or their own decision, they issue an advisory decision 
to the State siting board which then makes a decision based 
upon all the relevant factors.
    I think the important thing to keep in mind is that when it 
operates in that way, the substantive standard should not have 
changed, the degree of examination and review should not have 
changed. But what you get is a single decisionmaker who is in a 
position to make a public interest determination after 
considering all of the other authorities which otherwise could 
give you conflicting results.
    Chairman Inhofe. Thank you. Ms. Buccino?
    Ms. Buccino. I guess the way I react to that is, first, I 
would like to emphasize that I am for spending more money on 
protection rather than paper. And as I said, I am for making 
the system, the process work better. I think maybe this takes 
us in the right direction. I would just like to flag a couple 
concerns that I think need to be looked at carefully if you 
consider moving in this direction.
    One is, I think that while the statement has been made you 
are not taking authority away from existing State or local 
governments, there is very real concern that that is the 
result. At least in the version that I have seen, I think it is 
in H.R. 6, at least it has been articulated there, you are 
making a clear change. You are concentrating authority in FERC.
    So my approach would be to give the resources that are 
needed to the agencies to provide their input in a timely 
manner rather than create a system that may put them at a 
disadvantage. And you can look to the transportation act ISTEA 
where it was first used, where you have transportation funds 
going to resource agencies, wildlife agencies to help them get 
their job done. So my approach is help the agencies provide 
their input in a timely manner rather than silencing those 
voices.
    Chairman Inhofe. All right. Mr. Hogan, I am going to let 
you answer for the record because we are running short of time 
here and I had one more question I wanted to ask in my turn 
here.
    Mr. Duffy, I found it to be interesting after Senator 
Warner asked you some questions, in your opening statement, do 
I understand that 75 percent of the electricity in Cape Cod, 
Martha's Vineyard, and Nantucket is wind?
    Mr. Duffy. No. If our project were to come online.
    Chairman Inhofe. If it were to come online. How long would 
that take?
    Mr. Duffy. Oh, probably 2 years from the time of a 
favorable decision. We have to work around winter construction 
seasons, but basically 2 years.
    Chairman Inhofe. You always hear that the technology is not 
there, it is not going to work, and I have heard a lot of gloom 
and doom about wind energy. I would like to see it work. Where 
do you think we are in technology?
    Mr. Duffy. Obviously, we have been in the energy 
development business for 25 years and we are putting our 
private capital at stake in this project. We have invested very 
heavily in this and, prior to doing that, we had to come to the 
conclusion that it was both technically viable and economically 
viable. I think in particular looking at the offshore projects, 
it is a proven technology, it has been commercially successful 
in operation in the European market for more than a decade. 
There are numerous projects under development in the European 
markets today. Off the coast of New York, the Long Island Power 
Authority is proposing a project very similar to ours. And we 
are just absolutely convinced that the technology is proven.
    Chairman Inhofe. Thank you, Mr. Duffy.
    Senator Carper is not here. Let us just go ahead and come 
back to him. Senator Chafee?
    Senator Chafee. Thank you, Mr. Chairman. It is a pleasure 
to join you here at this hearing on an important issue of the 
siting of energy facilities. Certainly, New England has been 
mentioned not only with CapeWind, but LNG being very important 
to us also. We all know the abundance of natural gas in the 
world. The problem is getting it to market. It certainly burns 
cleaner than coal and oil, so it is advantageous to try and get 
it to market. Thus the dilemma. And we have got several fairly 
controversial proposals in Narragansett Bay; one on the 
Massachusetts side, one on the Providence side.
    But my question is to Mr. Robinson. In response to Ms. 
Buccino's assertion that under H.R. 6, numerous gas and oil 
activities on public lands shall not be subject to review under 
NEPA, has FERC taken a position on that?
    Mr. Robinson. It is amazing how this proposal has generated 
criticism that has no application to the proposal. No one is 
calling for any changes to the NEPA process. The only thing 
that we are asking for is to discipline the process by allowing 
an agency, be it FERC or any other agency, who is designated as 
that lead, to set a schedule and have all other agencies act 
under their authorities whatever actions they want to take to 
grant or deny within that schedule. So there is no diminution 
of authority in any other agency whatsoever.
    And as far as resources go, I think that was one of the 
other criticisms that we heard, that we should just apply more 
resources. I will guarantee you, as a regulator of 28 years, 
working with every agency that you can think of, State, local, 
or Federal, that we will consume those resources and we will 
design even more complicated processes administratively to try 
to do what we should do. It is not a matter of resources. It is 
a matter of discipline. And I think that is what we are calling 
for in our proposal.
    Senator Chafee. Thank you. Mr. Hogan, I know you had 
interesting testimony, but because of time constraints could 
not get through it, of what is happening in Pinedale. I think 
there is a ranch there, the Box R.
    Mr. Hogan. I have heard of it, yes.
    Senator Chafee. The Logier family. I think Mrs. Logier came 
from Rhode Island from years back. So I am familiar with 
Pinedale. A beautiful area of the world.
    But you were going to say that you were trying to get the 
proposal to drill into the winter, at least one well during the 
winter. How has that proceeded so that you could diversify? You 
said it was a boom and bust economy, all the people come in for 
the summer, and you are trying to diversify the impact on the 
community. Has that process concluded? Are you getting that one 
well in the winter?
    Mr. Hogan. Yes. We received two opportunities to drill with 
one rig during the winter season to try and establish a 
baseline that we could, in fact, do what we want to do, which 
is to have three pads with two rigs on each pad drill during 
the winter. When we receive that, we have had that approved, 
but when we are actually able to implement it this coming 
winter, then we are estimating that will establish the 
beginning of our 9 years of drilling on a year-round basis, 
which will provide opportunities for members of the crews to be 
able to identify long-term employment and therefore move their 
families into the area.
    Senator Chafee. And what year are you in in that process?
    Mr. Hogan. Excuse me?
    Senator Chafee. What year are you in the winter drilling 
process?
    Mr. Hogan. We just received approval in November to start. 
We were unable to start the three pad winter proposal until 
this coming winter. So we currently have commenced the pipeline 
portion of the project.
    Senator Chafee. And how was the regulatory process at 
trying to make that proposal?
    Mr. Hogan. It was a fairly long, drawn out procedure. We 
identified early on that there was a certain element of 
timidity, I guess, on behalf of the BLM to try and take a 
leading edge. I want to say that the BLM office in Pinedale is 
an excellent office. I do not take anything away from them.
    But they were a little skittish about going forward with 
our proposal fairly independently. So we took it upon ourselves 
to meet with the public on a very concentrated basis, explain 
our project, answer any questions that they would have to try 
and make sure that really the critical mass that the BLM needed 
in order to make a positive type of determination was there.
    Senator Chafee. And was there concentrated public 
opposition initially?
    Mr. Hogan. Well, I would not say it was concentrated. But 
there was some opposition. We spent a lot of time with the 
conservation groups and I think it was a matter of education. 
Once we got over the hurdle of educating them as to the 
benefits of our proposal, we did not receive any opposition. At 
this point, we have not had any litigation filed against our 
project. So we take that as a form of endorsement.
    Senator Chafee. I am sure in all these siting proposals 
public involvement has its pros and cons. Having been a mayor 
and going through zoning processes, you have to make sure you 
reach out to the neighborhood as the proposal comes forward. I 
know CapeWind has tried to do that, and the liquid natural gas 
people have as they come up Narragansett Bay, but nonetheless, 
as politicians, we sure hear from our constituents on these 
issues. Thank you, Mr. Chairman.
    Chairman Inhofe. Thank you, Senator Chafee. Only we former 
mayors understand that.
    Senator Chafee. Front lines.
    Chairman Inhofe. Senator Carper left. We will come back to 
him when he comes back. Senator Jeffords, do you have some 
questions? Our distinguished Ranking Minority Senator Jeffords.
    Senator Jeffords. That is better. Thank you. Mr. Robinson, 
in your testimony, you provide a chart that lists the number of 
State and Federal approvals and permits needed for liquified 
natural gas facilities. Can you clarify for the Committee which 
of these are actual permit requirements as opposed to some 
other review status?
    Mr. Robinson. I think we were using the term permit in its 
broad sense. But I believe all of them are, in fact. It is a 
process, a certificate, an authorization, a permit, an OK from 
an agency that our applicants have to go through. Now there is 
a distinguishing aspect of those permits that is not identified 
in that chart.
    Some of those are permits that are pursuant to Federal 
statutes--the Clean Water Act, the Clean Air Act, the Coastal 
Zone Management Act, and others--and many of those are legal 
predicates for an action to occur at the project, others are 
not. So there is a distinction there. But there is at least a 
half a dozen of those permits which by Federal statute must be 
acquired prior to any construction of a project.
    Senator Jeffords. Mr. Duffy, I would be interested in your 
thoughts about how the NEPA process has affected your project 
so far. Do you feel that the process of developing the draft 
Environmental Impact Statement has increased local community 
acceptance of the project?
    Mr. Duffy. I think it has, Senator. NEPA is always a 
double-edge sword. It is a difficult, long process, but I think 
the level of public support, in particular from the 
environmental community, has been much stronger now that the 
draft EIS has been issued. I mean, we have always had the 
strong support of the most respected environmental 
organizations. But until the draft EIS came out, it always was 
subject to the caveat that it is a good idea provided that the 
EIS is favorable. Now that it is out and it is showing a very 
favorable conclusion, it has absolutely solidified our support 
in the public.
    Senator Jeffords. Thank you. Ms. Buccino, in your 
experience, do you think that the current Clean Water Act, Safe 
Drinking Water Act, and National Environmental Policy Act 
provide enough protection for landowners that live near the 
energy-productionsites?
    Ms. Buccino. Well, those Acts provide a core of protection 
that is essential. There are issues related particularly to the 
split estate situation, where a company that leased the mineral 
rights underneath the land actually legally right now those 
rights trump private property rights on the surface. So there 
is quite a bit of conflict occurring right now primarily around 
coal-bed methane development where drill pads are being put in 
people's backyards, and the current legal framework does not 
address adequately those concerns.
    Senator Jeffords. To what extent has changing 
administrative guidance on NEPA fueled litigation in an effort 
to clarify the requirements regarding the content of the 
Environmental Impact Statement?
    Ms. Buccino. There has been quite a bit of work, actually, 
administratively to help improve the process. For example, the 
White House, under this Administration, had a NEPA Task Force 
that focused on implementation, improving implementation, and I 
think they are moving forward with some of those 
recommendations. The White House Task Force on Energy Project 
Streamlining was referred to earlier, and they have actually 
done a lot of work within the existing statutory framework.
    In fact, they issued a report, it was December 2002, 
reporting on the proceedings of their first year. In that 
report they reaffirmed that improvements can be made within the 
existing statutory framework, there is no need to change that 
statutory framework, and they have moved forward with Memoranda 
of Understanding to address deep water ports and also 
pipelines.
    Senator Jeffords. Thank you very much.
    Chairman Inhofe. The next would be Senator Isakson. I have 
asked if he would Chair the remainder of the meeting, which 
will just go for one round of questions because of something 
that has come up. So I appreciate your willingness to do that, 
Senator Isakson, and you are recognized for your questions.
    Senator Isakson. Thank you, Mr. Chairman. Out of respect 
for Senator Carper, in case he does not come back, I will ask a 
question I think he rhetorically asked in his brief opening 
statement. I guess, Mr. Robinson, it would be for you. What I 
heard him say was a discussion of giving the State a role in 
the siting of LNG facilities. That implied to me that the 
States do not now have a role. I am not knowledgeable either 
way. Would you tell me?
    Mr. Robinson. I would like to give you one example. We have 
a project proposed in California, the Port of Long Beach, it is 
the SES project. There, the State designated agency for their 
CEQA responsibilities, the NEPA equivalent, is the Port of Long 
Beach Authority. They are supposed to gather the information 
for all the other State agencies and act as the agency that 
prepares the Environmental Impact Statement. They are a 
cooperating agency with the Federal Energy Regulatory 
Commission in preparing the NEPA document that we are doing.
    We were prepared in October of last year to go forward with 
our draft EIS on that project. The Port Authority was not. 
There were more studies that they wanted to do. We agreed, and 
continue to agree, to wait while the Port Authority continues 
their State process before we go forward with our NEPA 
document.
    The State has a vital role in the siting of LNG facilities 
integrated into the NEPA process, certainly, as I just 
demonstrated, but also in terms of the permitting that goes on. 
No LNG facility can be sited unless it receives a Coastal Zone 
Management Act permit granted by the State. The State can stop 
any LNG facility they wish just with that one Act, and that is 
one of three that they can stop a project with.
    Senator Isakson. Thank you. I want to be sure to get that 
in the record in case Senator Carper did not get back in. I do 
not know if he had a follow up question, because I am not a 
mind-reader.
    Mr. Hogan, I would like to ask you a question. Does 
Questar--is it Questar, is that right?
    Mr. Hogan. Yes, sir.
    Senator Isakson. Do you do offshore drilling for natural 
gas?
    Mr. Hogan. No, Senator, we do not.
    Senator Isakson. All right. If anyone at the dais is 
knowledgeable about offshore drilling, and this again is 
educational and informative for me, what are the environmental 
concerns, I understand those with regard to petroleum, but what 
are the environmental concerns with regard to drilling for 
natural gas offshore? Ms. Buccino?
    Ms. Buccino. I will just highlight a few. A lot of them are 
similar, and it starts with the exploration stage, not just at 
the production end. There are concerns about the impacts on 
marine mammals from the seismic exploration, and I think there 
are also concerns that relate to impacts on tourism and local 
economies.
    I know there has been a debate about whether the potential 
impacts are really the same with gas versus oil drilling. And I 
think again that illustrates the importance of the 
environmental review and public participation process, to allow 
that information to come out, to allow the public to digest it, 
and if the case is made, the public accepts it and you can move 
forward with a project that is not controversial and not 
opposed.
    Senator Isakson. Well that was my reason for asking the 
question. Georgia has about a 123-mile coastline and natural 
gas is a real premium today and is going to be in shorter 
supply than it now is because of the amount being consumed just 
in generating electricity. And as the pressure grows on that, I 
just was not familiar with what the environmental--I know on 
petroleum, it would obviously be the oil spill and the 
fracturing and everything else that goes on. But it primarily 
would be to the marine wildlife and the esthetics, I take it, 
more than anything else. Is that correct?
    Ms. Buccino. I think that is true. I think it is an area 
that has not been explore fully and the review process can help 
do that.
    Senator Isakson. Thank you very much. Senator Clinton?
    Senator Clinton. Thank you, Mr. Chairman, and I thank the 
witnesses who are here with us today.
    I wanted to just add something for the record, because I 
know my friend Senator Warner was here earlier to discuss his 
concerns with the current permitting process for offshore wind 
farms, and there are several proposals under consideration as 
part of the energy bill debate to revise that permitting 
process, which is currently being done by the Corps under 
section 10 of the Rivers and Harbors Act.
    I just want to state for the record that we have a proposal 
that is in the pipeline in New York. The Long Island Power 
Authority has selected Florida Power and Light to build a 140 
megawatt wind farm off the Long Island coast. This project 
enjoys strong local support, and the permitting process is in 
midstream. So I think it is extremely important that whatever 
we might do in the context of any energy bill, or any other 
bill where this issue is addressed, we take into account some 
of the projects that are strongly supported and already on 
their way to going into production.
    I understand Senator Warner's concerns and I appreciate 
them. And whatever the adequacies or inadequacies of the Corps 
current authorities may be, my concern is that I do not want 
LIPA to have to start all over again if we change the 
permitting rules. So I hope that the Chairman and all of our 
colleagues will work with me on that in the spirit of this 
hearing, which is to reduce unnecessary roadblocks to energy 
projects. I would look forward to working with Senator Warner 
and others on the Committee.
    I have a few questions for Mr. Robinson, and, Mr. Robinson, 
it is in line with what you have already been testifying about. 
As I believe you know, Broadwater Energy has proposed building 
an offshore LNG terminal in the New York waters of Long Island 
Sound. There are many concerns on both sides of the Sound about 
the impact such a facility would have. It is not a huge body of 
water. It is not out in the open ocean. It is an important 
environmental, recreational, and economic asset. Given the 
importance of this issue, I laid out a number of concerns in a 
letter that I sent to FERC Chairman Wood last week.
    Twenty million people live within 50 miles of the Sound. 
Obviously, for anybody who has ever been to Long Island, you 
know we have some of the most beautiful beaches, some of the 
most picturesque towns and villages. The first time, Mr. 
Chairman, I went to Long Island, I told some people where I was 
going and they said how can you be going to the beach in New 
York. And so there is a lot of education that needs to be done.
    But it is an incredible resource and it is something that 
we care deeply about, because it is also not just recreational 
and environmental, but economic. There are a number of people 
who make their livelihoods from the Sound. So we have specific 
concerns about the safety and security risks associated with 
the presence of an anchored LNG terminal that could hold up to 
eight billion cubic feet of natural gas.
    So I would like to ask, Mr. Robinson, what is the size of 
the area around the proposed terminal in which release of gas 
by either accident or attack could result in pool fires or 
flammable vapor clouds?
    Mr. Robinson. Well there are two aspects to safety and 
security that you have to consider when you are thinking LNG. 
One is the tanker safety and security, and the other is the 
terminal itself. We actually commissioned a study by ABS about 
a year, gosh, I guess it was a year and a half ago now. That 
calculation that they came up with, which we use as a model for 
site-specific calculations, was in the range of around 4,500 
feet for a radiant heat zone of 1600 BTU per square foot per 
hour. That is a heat rate that if you left your skin exposed to 
it between 30 and 40 seconds and just waited, you would get a 
second degree burn; your clothing would protect you. So that is 
the perimeter of that 1600 BTU per square foot per hour is 
about 4500 feet for a tanker spill at its worst extent, the 
biggest pool expression.
    Sandia Laboratory did a follow up study on that in December 
of last year, and I think their number came out, again in 
general, it has to be applied specifically with the winds and 
the humidity and all the different types of factors that go 
into the calculation, and I believe it was around 5200 feet for 
that same 1600 BTU expression.
    Senator Clinton. That is the immediate area where there 
might be pool fires. But the impact would go beyond that 
immediate restricted area in terms of impact in the water. So 
how would access around the terminal be restricted? What would 
be the size of a restricted area around this terminal?
    Mr. Robinson. That is something that will be looked at in 
the analysis of the specific project, so I cannot answer that 
now. But typically, we are looking at an area for an on-ground 
land terminal of about 21 acres being about what you need to 
ensure that you have exclusion zones that will protect the 
public in case you have a worst case accident.
    Senator Clinton. And do these calculations take into 
account a deliberate attack on the terminal from missiles or 
aircraft?
    Mr. Robinson. It is hard to imagine how you would get the 
worst case example that we are analyzing in any way other than 
if there was a direct attack.
    Senator Clinton. And Mr. Robinson, how would this area be 
patrolled, and by whom?
    Mr. Robinson. Well, again through the NEPA process that we 
go through, we involve the State and local experts in this, the 
first responders, and the Coast Guard is heavily involved in 
this and they develop a waterways security assessment that we 
incorporate into our analysis, and then ultimately the Coast 
Guard and ourselves puts conditions on the proponent that 
includes the development with the local responders exactly how 
the project would be protected, right down to do you need to 
close a bridge while a tanker passes under, or do you need six 
boats around the tanker as it comes in, with what type of 
protective measures that those boats have to employ. All of 
that is worked out with the site-specific characteristics of 
the project and the people that would be intimately involved in 
that protection.
    Senator Clinton. My time has expired. But I find it hard to 
imagine how, given the potential site for this project, those 
kinds of concerns could be satisfied. But I appreciate your 
answers, and I would look forward to receiving a response to my 
letter to Chairman Wood.
    Mr. Robinson. Certainly.
    Senator Clinton. Thank you.
    Senator Isakson. Thank you, Senator Clinton. Senator 
Carper?
    Senator Carper. Mr. Chairman, thank you. Mr. Robinson, I 
welcome you and the other witnesses here today. Thank you all 
for being here and for your comments.
    I seem to recall a number of years ago I think GAO 
recommended that there be a requirement that all new large LNG 
facilities be built in remote areas, and I think some kind of 
prohibition against transportation through densely populated 
areas. I do not know when that recommendation was made but I am 
told there was such a recommendation.
    I think in your testimony you suggest that in order to 
effectively site natural gas infrastructure, and this may be a 
quote, a ``rational siting process should be adopted.'' I think 
those are your words. I would just suggest that the first step 
in that rational siting process should be rational siting. I 
understand the economic motives for companies, and I do not 
blame them, to try to get their facilities as close as they can 
to population centers, and if I were in their shoes I would be 
doing that, too. But I just do not understand why those same 
motives should also drive FERC. That is not clear to me.
    I just wonder why does, and if I am alleging something that 
is not true, correct me, but why does FERC continue to consider 
locations like the Delaware River, across the river from where 
we live, or in places like Fall River, Massachusetts? Would not 
many of the problems with State and local governments that you 
cite be lessened, not by overpowering them but by trying to 
rationalize the sites that you do approve?
    Mr. Robinson. OK. I am trying to think where to start on 
that. The rational siting process is a process that tries to 
bring officials------
    Senator Carper. First of all, go back to the GAO. Any 
recollection------
    Mr. Robinson. I am totally unaware of a GAO recommendation 
like that. What I think you may be speaking of is in 1979 the 
Pipeline Safety Act had a provision which required the 
development of regulations for remote siting of LNG facilities. 
DOT promulgated those regulations in 1980, and the response to 
that, the definition of ``remote siting'' was the development 
of these exclusion zones which we just discussed. So that 
constitutes remote siting if you can put a terminal in place 
and look at the impacts associated with the 1600 BTU per square 
foot per hour radiant heat flux and protect people from that, 
that was considered to be remote. That went through a review 
process and it was appealed and all that, and it has stuck ever 
since.
    So that is the only thing prior to about now, because 
people really have not talked about LNG much in the last 30 
years, that I know where remote siting came up, and that is how 
it was handled.
    Senator Carper. All right. All right.
    Mr. Robinson. Now as far as rational siting, first, I would 
like to make it clear that the Commission does not have the 
profit motive aspect in looking at the siting, but we do have 
some knowledge of the infrastructure needed to deliver gas to 
regions of the country. In New England, in particular, the 
problem is that I doubt if we will ever see another pipeline 
cross the Hudson River, I just do not know that will ever 
happen.
    If you do not, then your capacity for delivery of gas to 
New England is set. The gas that comes down from Canada is 
dwindling, the play off Nova Scotia did not come in the way 
they thought; the Maritime Northeast pipeline is running I 
think about two-thirds full. The only option--and you have no 
underground storage in New England--is LNG. Underground storage 
is not geologically possible.
    Senator Carper. Say that again.
    Mr. Robinson. You have no underground storage in New 
England. It is geologically impossible. That is a big component 
of a good gas delivery system which you just really do not 
have. Your storage is all above ground, about 40 LNG tanks 
spread around New England right now, with 10,000 truckloads of 
LNG moving around New England every year right now. The only 
real addition to natural gas that you have in New England that 
is available is LNG.
    Now the problem becomes, where do you find a deep water 
port in New England that can accommodate these ships? There are 
not many available that are not already in use or protected in 
some fashion. So you are basically looking at existing ports 
with existing industrial uses bringing in existing cargos that, 
in my estimation, in many instances are much more hazardous 
than an LNG tanker.
    Senator Carper. Are you at all familiar with the Delaware 
River?
    Mr. Robinson. I have crossed it.
    Senator Carper. Did you pay the toll?
    Mr. Robinson. Most times.
    Senator Carper. Our friends from BP, and they are a good 
company, as you know, but they are interested, along with some 
folks in New Jersey, in building a pier that would stick a 
couple of thousand feet out into the Delaware River, at least 
initially they were and I think they are having some second 
thoughts about it. And the Delaware River is not all that wide 
in that point and as you go further north. The idea of having a 
pier that sticks a couple thousand feet out into the river is 
just a cause for concern for a lot of reasons, not the least of 
those could involve homeland security and potential for some 
kind of terrorist attack. Is that the sort of thing that you 
all think about?
    Mr. Robinson. Oh, absolutely. In fact, that will be a key 
component of our environmental analysis, to look at river 
congestion, the effects on the economy, if there are any, and 
how it might be mitigated. Those are the types of public 
interest concerns, and they range from wetlands to economic 
impacts to endangered species, that the Commission has to look 
at in total in making the judgment whether it is in the public 
interest to grant an authorization for an LNG terminal.
    Senator Carper. I would kind of like to go back and sort of 
ask this again and ask you to think about it one more time. My 
final question, it is kind of a restating of my earlier 
question, would not many of the problems with State and local 
governments that you cite I think in your testimony be 
lessened, not by overpowering them, but by trying to 
rationalize the sites that you approve?
    Mr. Robinson. Certainly, there is a difference in siting 
regionally across the country. We have LNG proposals that are 
in populated areas where we have absolutely no opposition to 
them whatsoever. We have the same technology being proposed for 
areas where there is enormous opposition, and you are aware of 
those. That has to be accounted for, that has to be taken into 
consideration, but it has to be analyzed in terms of exactly 
what those impacts are and how those people would be 
inconvenienced, and then that judgment made.
    I do not think we can have a national network of energy 
infrastructure that supports our economy that is based upon a 
vote at the local level. I think that lowest common denominator 
aspect of that would eliminate the ability for regionally 
significant energy projects to be developed where local 
concerns of ``we do not want it here'' would override that.
    Senator Carper. All right. Thanks very much. Thanks, Mr. 
Chairman.
    Senator Isakson. Thank you, Senator Carper.
    I have never chaired a Committee before, but I think I am 
supposed to leave the record open for 5 days in case any member 
wants to submit any additional questions for the record.
    [The referenced materials follow:]
    Senator Carper. Why do we not bring up some legislation and 
see if we can get it through.
    [Laughter.]
    Senator Isakson. I know I am not supposed to do that. I 
suggest the absence of a quorum on that.
    Senator Carper. Unanimous consent, what do you think?
    Senator Isakson. I want to thank all the witnesses who 
testified today, and thank the members who attended.
    The Committee stands adjourned.
    [Whereupon, at 11:06 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follows:]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

                       STATEMENT OF: PAGE

    HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE OF 
OKLAHOMA 4 HON. DAVID VITTER, U.S. SENATOR FROM THE STATE OF 
LOUISIANA 2
    WITNESSES:
    J. MARK ROBINSON, DIRECTOR OF THE OFFICE OF ENERGY 
PROJECTS, FEDERAL ENERGY REGULATORY COMMISSION 10
    DENNIS DUFFY, VICE PRESIDENT OF REGULATORY AFFAIRS, 
CAPEWIND ASSOCIATES, LLC 14
    SHARON BUCCINO, SENIOR ATTORNEY, NATURAL RESOURCES DEFENSE 
COUNCIL 27
    RONALD E. HOGAN, GENERAL MANAGER, QUESTAR EXPLORATION AND 
PRODUCTION COMPANY 30

</pre></body></html>
